September 3, 2010

ANTHONY J. VEGLIANTE,
EXECUTIVE VICE PRESIDENT AND
 CHIEF HUMAN RESOURCES OFFICER

SUBJECT: Management Advisory – Follow-Up Review of the Postal Service’s
         Employee Benefit Programs (Report Number HR-MA-10-001)

This report presents the results of our follow-up review of the U.S. Postal Service’s
Federal Employees’ Group Life Insurance (FEGLI) and Federal Employees Health
Benefits (FEHB) programs (Project Number 10YG018HR000). This report responds to a
request from Senator Susan M. Collins, Ranking Member, Senate Committee on
Homeland Security & Governmental Affairs. The senator requested an update1 to the
U.S. Postal Service Office of Inspector General’s (OIG) 2007 employee benefits
program comparability data and determine what the savings would be if the Postal
Service changed FEGLI and FEHB contribution rates that matched the rest of the
federal government. This review addresses financial risk. See Appendix A for additional
information about this review.

The Postal Service offers both life and health insurance benefits to all career employees
by participating in the FEGLI and FEHB programs. Unlike the federal government, the
Postal Service’s contribution rates for the FEGLI and FEHB programs are determined
through a collective bargaining process with its unions. Moreover, 39 U.S.C. §1004
requires the Postal Service to consult with the management associations2 regarding any
changes to contribution rates for non-bargaining employees.

Conclusion

The Postal Service has reduced its FEHB contribution rate by 1 percent per year3 from
2008 to 2010 with similar reductions planned in 2011 and 2012. However, its FEGLI and
FEHB contribution rates are still higher than those of the federal government. We
determined the Postal Service can save approximately $705 million in calendar year

1
  The OIG issued a report on the FEGLI and FEHB benefit programs titled Postal Service’s Employee Benefit
Programs (Report Number HM-AR-07-003, dated September 24, 2007).
2
  The management associations are the National Association of Postmasters of the United States, National
Association of Postal Supervisors, and the National League of Postmasters.
3
  The 1 percent reductions were a result of agreements between the Postal Service and the four major unions:
the American Postal Workers Union (APWU), the National Association of Letter Carriers (NALC), the National Postal
Mail Handlers Union (NPMHU), and the National Rural Letter Carriers’ Association (NRLCA).
Follow-Up Review of the Postal Service’s                                                   HR-MA-10-001
 Employee Benefit Programs


(CY) 2011 if it matches the federal government’s FEGLI rate and uses the federal
government formula to calculate its FEHB contribution rates (see Appendix B).

FEGLI Contribution Rate

The Postal Service pays 100 percent of the basic FEGLI contribution rate for the
majority of its employees, compared to the 33.33 percent paid by the federal
government.4 As shown in Table 1, the Postal Service’s current employee FEGLI costs
for CYs 2007 through 2009 totaled $612 million.

     Table 1. The Postal Service’s Total FEGLI Costs for CYs 2007 through 2009

                                                                                       Total Costs
             Employee
                                  CY 2007            CY 2008          CY 2009         for CYs 2007
             Categories
                                                                                         to 2009
          Bargaining

          Non-Bargaining5

          Totals $203,5                47,814      $207,101,883    $201,659,711        $612,309,408
           Source: Postal Service Payroll System
           Note: Numbers were rounded.

The Postal Service’s FEGLI employer contribution rate is higher for most employees
than the rate paid by the federal government because Title 39 U.S.C. requires the
Postal Service to determine the FEGLI contribution rate for bargaining employees
through a collective-bargaining process with its unions. In addition, Title 39 U.S.C.
states that no variation, addition or substitution shall be made to fringe benefits except
by agreement between the unions and the Postal Service.6 The current national
agreements require the Postal Service to maintain the current life insurance program,
including the requirement for the Postal Service to pay 100 percent of the contribution
rate. There is no statutory requirement for the contribution rate for non-bargaining
employees; however, Title 39 U.S.C. requires the Postal Service to consult with the
non-bargaining employee management associations regarding any changes and the
Postal Service has always paid the same rate for bargaining and non-bargaining
employees.




4
  FEGLI benefits for Postal Service OIG employees with no executive benefits and Postal Inspection Service
inspectors and forensic staff are paid at the same rate (33.33 percent) as the federal government.
5
  We excluded OIG employees with no executive benefits, Inspection Service inspectors, and forensic staff from
these totals because their FEGLI contributions are paid at the same rate as federal employees. However, we
included OIG employees who receive executive benefits in these totals.
6
  For most federal agencies, the 33.33/67 percent agency/employee contribution rates are determined by Title 5
U.S.C, §8708, Government Contributions.



                                                        2
                                             Restricted Information
Follow-Up Review of the Postal Service’s                                                   HR-MA-10-001
 Employee Benefit Programs



We determined that if the Postal Service matched the federal government’s FEGLI
contribution rate it could result in predicted savings of approximately $139 million in
fiscal year (FY) 2011. See Appendix C for our methodology in calculating these savings.

FEHB Contribution Rate

The Postal Service’s FEHB contribution rate is 79 percent for most employees
compared to 72 percent for federal government employees. The federal government
bases its contribution rate on a 72/75 formula whereby the government pays 72 percent
of the weighted average premium cost of all FEHB plans, but no more than 75 percent
of the total premium for any individual plan. Additionally, the Postal Service’s FEHB
contribution rate for Postal Career Executive Service (PCES) employees, OIG directors,
and Senior Executive Service (SES) employees is 100 percent, while there is no similar
benefit provided to employees with comparable grades at most other federal agencies.
Postal Service officials previously advised that the rate paid for PCES employees
improves the recruitment and retention of those employees.

The Postal Service’s FEHB contribution rate is higher than the federal government rate
because Title 39 U.S.C. requires the rate be determined through a collective bargaining
process with the unions. In addition, like FEGLI, there is no statutory requirement for the
FEHB contribution rate for non-bargaining employees.

As shown in Table 2, the Postal Service’s current employee FEHB cost for CYs 2007
through 2009 was approximately $14.3 billion.

         Table 2. Postal Service’s Total FEHB Costs for CYs 2007 through 2009

       Employee                                                                          Total Costs for CYs
                               CY 2007             CY 2008              CY 2009
       Categories                                                                           2007 to 2009
    Bargaining

    Non-Bargaining7

    Totals $4,809,2                  02,809     $4,748,448,267      $4,693,083,602 $14,25          0,734,678
    Source: Postal Service Payroll System
    Note: Amounts were rounded.

The Postal Service experienced reductions in FEHB premium costs from 2008 through
2009. Specifically, in CY 2009, the Postal Service paid approximately $4.7 billion in
FEHB benefits for bargaining and non-bargaining employees. This is a decrease of
about $55 million from CY 2008.

7
  We excluded OIG employees with no executive benefits, Inspection Service inspectors, and forensic staff from
these totals because their FEHB contributions are paid at the same rate (72 percent) as federal employees.
However, OIG employees who have executive benefits are included in these totals.



                                                         3
                                              Restricted Information
Follow-Up Review of the Postal Service’s                                                   HR-MA-10-001
 Employee Benefit Programs



Postal Service officials indicated the decrease in FEHB premium costs was due to
complement reductions and the continuing decline in the employer FEHB share of the
premium that began in plan year 2008 as a result of negotiated agreements with the
unions. The Postal Service’s employer FEHB contribution rate has decreased from an
average of 83 percent of the total premium in 2007 to 79 percent in 2010. According to
Postal Service officials, this reduction in the employer share has allowed the agency to
keep average health benefit premium cost increases below both FEHB plan increases
and health benefits cost increases in the private sector, as measured by the
Employment Cost Index.8

We determined that if the Postal Service uses the federal government’s FEHB formula
to calculate its FEHB contribution rate, it could result in predicted savings of
approximately $567 million in CY 2011. See Appendix C for our methodology in
calculating these savings.

We recommend the executive vice president and chief human resources officer:

1. Consider pursuing changes to the Federal Employee Group Life Insurance
   contribution rate to match the federal government rate.

2. Consider pursuing changes to the Federal Employee Health Benefit contribution rate
   to allow for use of the federal government’s formula to calculate employer
   contributions.

Management’s Comments

Management generally agreed with the findings and recommendations




                           See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2, and therefore
we consider the recommendations closed.


8
 The Employment Cost Index is a quarterly report of compensation costs, including benefits, released by the Bureau
of Labor Statistics in the final month of each quarter. The data provided excludes federal employees.



                                                        4
                                             Restricted Information
Follow-Up Review of the Postal Service’s                                  HR-MA-10-001
 Employee Benefit Programs




                                                                                    This is
especially critical given the potential for additional Postal Service losses in FY 2011.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Doug A. Tulino
    Vinay K. Gupta
    Lisa C. Reed
    Corporate Audit and Response Management




                                                      5
                                           Restricted Information
Follow-Up Review of the Postal Service’s                              HR-MA-10-001
 Employee Benefit Programs


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The federal government established the FEGLI and FEHB Programs in 1954 and 1960,
respectively. The Office of Personnel Management (OPM) has responsibility for
administering both programs. All Postal Service career employees can receive life
insurance and health coverage through the FEGLI and FEHB programs. The Postal
Service and its employees share the cost of FEHB benefits.

Prior to 2008, the Postal Service calculated its liability for FEHB premium payments for
any individual employee using an “85/88.75” formula. That is, the Postal Service would
pay the lesser of 85 percent of the OPM-determined FEHB program-wide “weighted
average of premiums” or 88.75 percent of the specific plan premium. Because of the
mix of plans chosen by employees, the Postal Service ended up paying, generally, 1 to
2 percentage points less than 85 percent of overall premium costs.

In general, all other government agencies use a different formula for determining their
premium liability payouts. They pay the lesser of 72 percent of the OPM-determined
FEHB program-wide weighted average of premiums, or 75 percent of the specific plan
premium, for a given employee. Because of the mix of plans employees chose, the
federal government ends up paying, generally, 1 to 2 percentage points less than 72
percent of overall premium costs. This can be termed a “72/75” formula.

Beginning in 2008, as a result of new collective bargaining agreements with the major
postal unions, the formula used for determining the Postal Service’s portion of the
premium costs was reduced by 1 percentage point for each year of the new contract
periods. That is, the formula for the APWU and NPMHU changed to “84/87.5” in 2008
and to “83/86.5” in 2009. While the formula for the NALC and NRLCA remained at
“85/88.75” in 2008, it changed to “83/86.5” in 2009. By FY 2011, the formula will be
“81/84.5.” For the NALC and NPMHU, the Postal Service’s contribution level will be
reduced in CY 2012 by an additional 1 percent to 80/83.5.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to update the OIG’s 2007 Employee Benefits Comparability Data and
determine what the savings would be if the Postal Service changed their FEHB and
FEGLI contribution rates to match the rest of the federal government.

Our scope for the review was the FEHB and FEGLI benefit programs and the Postal
Service’s participation in these programs during CYs 2007, 2008, and 2009. We used
calendar year data instead of fiscal year data for our analysis because changes to the
contribution percentages and health plan increases are made on a calendar year basis
and FEGLI premiums are based on an employee’s annual basic pay in effect at the end
of a given pay period.



                                                      6
                                           Restricted Information
Follow-Up Review of the Postal Service’s                                                  HR-MA-10-001
 Employee Benefit Programs



To accomplish our objective, we reviewed all applicable laws, regulations, policies, and
procedures related to the FEGLI and FEHB benefit programs. We also communicated
with the OPM to verify that other agencies’ FEGLI and FEHB contribution rates
remained the same since we last reviewed them.

Additionally, we reviewed legal or regulatory obstacles the Postal Service would face if it
sought to reduce its FEGLI and FEHB contribution rates from the current 100 percent to
33.33 percent for basic life and from 79 percent to 72 percent for FEHB. We also
reviewed current agreements with the four major unions to determine the Postal
Service’s contractual obligations related to employee benefits.

To determine the potential savings associated with changes to the Postal Service’s
contributions to the FEGLI and FEHB benefit programs, we obtained and reviewed the
total Postal Service and employee FEGLI and FEHB payment amounts for CYs 2007,
2008, and 2009. Because OIG non-directors and SES employees, Postal Inspection
Service inspectors, and forensic staff have their FEGLI and FEHB employer
contributions paid at the federal government rates, we excluded these costs from the
total figures for non-bargaining employees. We also excluded from these costs
payments made to retirees and deceased benefit payouts. Deceased benefit payouts
are captured in the Postal Service’s general ledgers but not in the Pay Data and Master
Employee files. With the assistance of an OIG economist, we predicted the savings to
the Postal Service in CY 2011 if it matched the federal government FEGLI contribution
rate and used the federal government formula for calculating FEHB contribution rates.

We conducted this review from March through September 2010 in accordance with the
Quality Standards for Inspections.9 Management reviewed our discussion draft and
generally agreed with our observations and conclusions. We incorporated
management’s comments in this report as appropriate.

Data Reliability Testing

To verify the reliability of computer-generated data, we compared our FEHB and FEGLI
payment totals obtained from the Postal Service Pay Data and Employee Master Files
to employer contribution amounts the Postal Service reported to the OPM for CYs 2007,
2008, and 2009. In addition, we relied on the OIG’s verification of employer
contributions reported and transferred to the OPM for health benefits, life insurance, and
retirement for CYs 2007, 2008, and 2009, which did not reveal any weaknesses that
would impact our review. Therefore, we believe the data is sufficiently reliable to support
our conclusions and recommendations.

9
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        7
                                             Restricted Information
Follow-Up Review of the Postal Service’s                              HR-MA-10-001
 Employee Benefit Programs



PRIOR AUDIT COVERAGE

We identified one previous OIG report related to Postal Service employee benefits, titled
Postal Service’s Employee Benefit Programs (Report Number MA-AR-07-003, dated
September 24, 2007). The report found the Postal Service’s FEGLI and FEHB programs
for bargaining and non-bargaining employees are comparable to the six federal and five
quasi-federal agencies against which we benchmarked. However, the Postal Service’s
contribution rates for both programs were significantly higher compared to most
agencies.

For example, the Postal Service pays the full cost of the premiums for almost all
employees’ FEGLI basic life insurance and for executives’ Option-A life insurance and
FEHB benefits. Most other agencies pay 33.33 percent of the FEGLI premiums and 72
percent of the FEHB premiums for their employees. We also found the Postal Service
made great progress in reducing future FEHB costs when it successfully negotiated with
two of its major unions — the APWU and the NPMHU — to reduce the agency’s FEHB
contribution rate of 1 percent for each year of the existing collective bargaining
agreements. The report contained four recommendations that would allow the Postal
Service to continue providing employees with benefits that are on a par with those
provided to other federal employees, while significantly reducing the agency’s cost
obligations. Management agreed with the findings and recommendations and stated
they would pursue the recommendations in the next round of collective bargaining and
management consultation process.




                                                      8
                                           Restricted Information
Follow-Up Review of the Postal Service’s                                              HR-MA-10-001
 Employee Benefit Programs


                                   APPENDIX B: MONETARY IMPACT

We determined the Postal Service could save approximately $705 million in CY 2011 if
its FEGLI contribution rate matched the federal government’s rate and if its formula for
calculating FEHB contribution rates also matched the federal government’s.

                      Program                Impact Category          Amount
                                                                  10
                    FEGLI                 Funds Put to Better Use $138,530,109
                    FEHB                  Funds Put to Better Use    566,895,413
                                           Total $705,425,522




10
     Funds that could be used more efficiently by implementing recommended actions.



                                                          9
                                               Restricted Information
Follow-Up Review of the Postal Service’s                               HR-MA-10-001
 Employee Benefit Programs


                   APPENDIX C: METHODOLOGY FOR CALCULATING
                    FEGLI AND FEHB PREMIUM PAYMENT SAVINGS

FEGLI

Objective

Estimate the difference between premium payments we predict the Postal Service will
pay and those we predict the Postal Service would pay using the federal government
rate to calculate the premium payments for calendar year 2011. Note: For our analysis,
we concentrated solely on the Postal Service’s cost for basic coverage because those
costs comprise 99.9 percent of the total.

Methodology

Using historical FEGLI premium information for CYs 2004-2009 obtained from the Pay
Data and Employee Master files, we determined the sum of total premium costs for all
categories of employees, paid by both the Postal Service and employees, for each of
the historical years. From these six data points, using standard functions in Excel, we
calculated the slope and y-intercept of a “least squares” linear regression line through
the points. From the slope and y-intercept, we were then able to predict the total
premium costs for the year 2011.

Using historical FEGLI premium information for CYs 2004-2009, we calculated the
percentage of total premium costs the Postal Service paid for each of the historical
years. From these six data points, using standard functions in Excel, we calculated the
slope and y-intercept of a “least squares” linear regression line through the points. From
the slope and y-intercept, we were then able to predict the percentage of total premium
costs the Postal Service will pay for the year 2011.

For 2011, we then multiplied the predicted total premium cost by the predicted
percentage the Postal Service would pay to calculate the predicted amount the Postal
Service would pay.

We used 33.33 as our predicted percentage that the Postal Service would pay, in 2011,
if it used the federal government rate. We were then able to calculate the predicted
amount the Postal Service would pay for the year 2011 if it used the federal government
rate.

We then calculated the predicted difference between the amount the Postal Service will
pay and the amount the Postal Service would pay if it used the federal government rate.




                                                     10
                                           Restricted Information
 Follow-Up Review of the Postal Service’s                                                   HR-MA-10-001
  Employee Benefit Programs


 The predicted payment difference for 2011 is approximately $139 million as shown in
 Table 3.

      Table 3. Predicted Postal Service FEGLI contributions (Basic) vs. predicted
                contributions (Basic) if paid at federal government rate

                                                                                                      Difference between
                                                                                                        predicted future
                              Predicted                             Predicted         Predicted          Postal Service
                                                Predicted
            Predicted          Postal                                federal           federal         contributions and
                                              Postal Service
  CY           total           Service                            government         government           future Postal
                                                 FEGLI
            premiums            share                                 share             FEGLI                Service
                                              contributions
                            (percentage)                          (percentage)      contributions     contributions if paid
                                                                                                         at the federal
                                                                                                        government rate
  2011 $207,8 65,200              99.97%        $207,811,580             33.33%       $69,281,471 $138,5            30,109
Source: Postal Service Payroll System
Note: There are futher decimal places not shown in the predicted Postal Service share and predicted federal
government share percentages.

 FEHB

 Objective

 Estimate the difference, for calendar year 2011, between premium payments we predict
 the Postal Service would pay and those we predict the Postal Service would pay if it
 used the federal government’s formula to calculate the premium payments.

 Methodology

 The methodology is directly analogous to that described for FEGLI.

 Using historical FEHB premium information for CYs 2004-2009 obtained from the Pay
 Data and Employee Master files, we calculated the sum of total premium costs for all
 categories of employees, paid by both the Postal Service and employees for each of the
 historical years. From these six data points, using standard functions in Excel, we
 calculated the slope and y-intercept of a “least squares” linear regression line through
 the points. From the slope and y-intercept, we were then able to predict the total
 premium costs for the year 2011.

 Using historical FEHB premium information for CYs 2007-2009, we calculated the
 percentage of total premium costs paid by the Postal Service for each of the historical
 years. From these three data points, using standard functions in Excel, we calculated
 the slope and y-intercept of a “least squares” linear regression line through the points.
 From the slope and y-intercept, we were then able to predict the percentage of total
 premium costs the Postal Service will pay for the year 2011. Because the years 2007-
 2009 reflect the results of reducing the FEHB payment formula by one percentage point


                                                         11
                                               Restricted Information
      Follow-Up Review of the Postal Service’s                                                   HR-MA-10-001
       Employee Benefit Programs


      each year, the prediction for 2011 inherently assumes the reduction in the calculation
      formula will continue for 2011, and subsequent years.

      For 2011, we then multiplied the predicted total premium cost by the predicted
      percentage the Postal Service would pay to calculate the predicted amount the Postal
      Service would pay (if the one percentage point reduction in the formula continues for
      2011).

      We also used the slope and y-intercept described above to predict the percentage of
      total premium costs the Postal Service would pay if the federal government payment
      calculation formula were used. We were then able to calculate the predicted amount
      which the Postal Service would pay for the year 2011if it used the federal government
      formula.

      We then calculated the predicted difference, for 2011, between the amount the Postal
      Service will pay, if the 1 percentage point reduction in the formula continues for 2011,
      and the amount the Postal Service would pay if it used the federal government formula
      in 2011.

      The predicted payment difference for 2011 is approximately $567 million as shown in
      Table 4.

        Table 4. Predicted Postal Service FEHB contributions if the calculation formula
       continues to reduce by 1 percentage point each year
                        vs. predicted contributions if paid at federal government rate

                                                                                                        Difference between
                                                                                                          predicted future
                              Predicted                             Predicted         Predicted            Postal Service
                                                Predicted
                               Postal                                federal           federal           contributions and
        Predicted total                       Postal Service
 CY                            Service                             government        government             future Postal
          premiums                                FEHB
                                share                                 share             FEHB                   Service
                                              contributions
                            (Percentage)                          (Percentage)      contributions       contributions if paid
                                                                                                              at federal
                                                                                                          government rate
2011 $5,988,7 92,823              78.74%       $4,715,287,815            69.27%     $4,148,392,402 $566,8                95,413
Source: Postal Service Payroll System
Note: There are futher decimal places not shown in the predicted Postal Service share and predicted federal government
     share percentages.




                                                              12
                                                    Restricted Information
Follow-Up Review of the Postal Service’s                            HR-MA-10-001
 Employee Benefit Programs


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                     13
                                           Restricted Information
Follow-Up Review of the Postal Service’s                            HR-MA-10-001
 Employee Benefit Programs




                                                     14
                                           Restricted Information
